No. 20-251
IN THE SUPREME COURT OF THE UNITED STATES
Willie Gipson,

Petitioner,

v.
Louisiana,

Respondent.

MOTION TO DISMISS
Pursuant to Rule 46.2 of the Rules of this Court, petitioner moves for his
petition for a writ of certiorari to be dismissed. On February 26, 2021, the Criminal
District Court for the Parish of Orleans vacated Mr. Gipson’s conviction. In light of
that development, the petition is moot and should be dismissed. All fees due and costs
payable have been paid to the Clerk.
Respectfully submitted,
Jeffrey L. Fisher
O’MELVENY & MYERS LLP
2765 Sand Hill Road
Menlo Park, CA 94025
Jamila Johnson
Tina Peng
THE PROMISE OF JUSTICE
INITIATIVE
1024 Elysian Fields Ave.
New Orleans, LA 70116

March 10, 2021

Yaira Dubin
Counsel of Record
O’MELVENY & MYERS LLP
Times Square Tower
7 Times Square
New York, NY 10036
(212) 728-5946
ydubin@omm.com
Meaghan VerGow
Kendall Turner
O’MELVENY & MYERS LLP
1625 Eye Street, NW
Washington DC 20006

